Washington, D.C. 20530

November 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Mikel Clotaire v. United States of America,
S.Ct. No. 20-5908

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on September 29, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on November 23, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 23, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5908
CLOTAIRE, MIKEL
USA

PETER T. PATANZO
BENJAMIN, AARONSON, EDINGER &
PATANZO, PA
1700 EAST LOS OLAS BOULEVARD
SUITE 202
FORT LAUDERDALE, FL 33301
954-779-1700
PPATANZO@BELLSOUTH.NET
954-779-1771(Fax)

